TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2010 Statutory Audit of
                      Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester
                           and Similar Designations



                                           July 23, 2010

                              Reference Number: 2010-30-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redaction from this document.

 Redaction Legend:
 1 – Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2010 STATUTORY AUDIT                      compliant with the tax laws. The label could
OF COMPLIANCE WITH LEGAL                              bias IRS employees and result in unfair
GUIDELINES PROHIBITING THE USE OF                     treatment.
ILLEGAL TAX PROTESTER AND                             The purpose of our audit was to determine
SIMILAR DESIGNATIONS                                  whether the IRS complied with RRA 98
                                                      Section 3707 and internal guidelines that
                                                      prohibit officers and employees from referring to
Highlights                                            taxpayers as Illegal Tax Protester and similar
                                                      designations.
Final Report issued on July 23, 2010
                                                      WHAT TIGTA FOUND
Highlights of Reference Number: 2010-30-073           The IRS has not reintroduced past Illegal Tax
to the Internal Revenue Service Deputy                Protester codes or similar designations on
Commissioner for Services and Enforcement             taxpayer accounts. In addition, IRS publications
and Deputy Commissioner for Operations                and the Internal Revenue Manual no longer
Support.                                              contain any Illegal Tax Protester references.
                                                      However, TIGTA found that out of approximately
IMPACT ON TAXPAYERS
                                                      80.6 million records and cases, there were 196
Congress enacted Internal Revenue Service             instances in which 163 employees had referred
(IRS) Restructuring and Reform Act of 1998            to taxpayers as “Tax Protester,” “Constitutionally
(RRA 98) Section 3707 to prohibit the IRS from        Challenged,” or other similar designations in
labeling taxpayers as Illegal Tax Protesters or       case narratives on the computer systems
any similar designations. However, IRS                analyzed.
employees continue to refer to taxpayers by
                                                      The IRS did take the positive step of modifying
these designations in case narratives. Using
                                                      the Integrated Collection System so that
Illegal Tax Protester or other similar
                                                      prohibited protester designations could not be
designations may stigmatize taxpayers and may
                                                      entered into case histories. This is significant
cause employee bias in future contacts with
                                                      because this system has historically accounted
these taxpayers.
                                                      for a large number of the exceptions TIGTA
WHY TIGTA DID THE AUDIT                               identified in prior reviews. The IRS should be
                                                      commended for taking this action to protect
This audit was initiated because TIGTA is             taxpayer rights.
required to annually evaluate compliance with
the prohibition against using Illegal Tax             WHAT TIGTA RECOMMENDED
Protester or similar designations. Prior to
                                                      TIGTA made no recommendations in this
enactment of the RRA 98, the IRS used the
                                                      report.
Illegal Tax Protester Program to identify
individuals and businesses using methods that         In their response to a draft of this report, IRS
were not legally valid to protest the tax laws.       management disagreed that the references
IRS employees referred taxpayers to the Illegal       listed in the report are potential violations.
Tax Protester Program when their returns or           However, management continues to discourage
correspondence contained specific indicators of       employees from using such designations in
noncompliance with the tax law, such as the           their casework.
use of arguments that had been repeatedly
rejected by the courts.                               TIGTA continues to believe the use of Illegal
                                                      Tax Protester or similar designations may
Congress enacted the prohibition against Illegal      stigmatize taxpayers because electronic case
Tax Protester designations because it was             narratives are available to other IRS employees
concerned that some taxpayers were being              for future reference and may affect the opinions
permanently labeled as Illegal Tax Protesters         and actions of employees working cases.
even though they had subsequently become
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 23, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2010 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 200930042)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with the IRS Restructuring and Reform Act of 1998 1 Section 3707 and its own
 internal guidelines that prohibit IRS officers and employees from referring to taxpayers as Illegal
 Tax Protesters or any similar designations. The Treasury Inspector General for Tax
 Administration is required under Internal Revenue Code Section 7803(d)(1)(A)(v) to annually
 evaluate the IRS’ compliance with the provisions of RRA 98 Section 3707.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. Management’s complete response to the draft report is
 included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                           Fiscal Year 2010 Statutory Audit of Compliance With Legal
                           Guidelines Prohibiting the Use of Illegal Tax Protester and
                                              Similar Designations




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File...................Page 3
          Internal Revenue Service Publications Do Not Contain Illegal
          Tax Protester References ..............................................................................Page 3
          Illegal Tax Protester References Have Been Removed From the
          Internal Revenue Manual..............................................................................Page 4
          In Some Instances, Employees Used Illegal Tax Protester or
          Similar Designations in Case Narratives ......................................................Page 4
          Changes to the Integrated Collection System Should Reduce
          Improper Designations..................................................................................Page 7
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Have Been Established to Address Tax Compliance
          Issues.............................................................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Glossary of Terms .................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
         Fiscal Year 2010 Statutory Audit of Compliance With Legal
         Guidelines Prohibiting the Use of Illegal Tax Protester and
                            Similar Designations




                      Abbreviations

IRS             Internal Revenue Service
RRA 98          Restructuring and Reform Act of 1998
                       Fiscal Year 2010 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98) 2
Section (§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations.
In addition, the law requires the removal of all existing Illegal Tax Protester codes from the
Master File 3 and instructs IRS employees to disregard any such designation not located on the
Individual Master File.
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods that were not legally valid to protest the tax
laws. Employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. There were tax protester
coordinators who were responsible for determining whether a taxpayer should be included in the
Illegal Tax Protester Program. If a taxpayer was classified as an Illegal Tax Protester, the
taxpayer’s record was coded as such on the Master File. Once a taxpayer’s account was coded,
certain tax enforcement actions were accelerated. The designation was also intended to alert
employees to be cautious so they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the Illegal Tax Protester designation. The concern was that this label could bias IRS employees
and result in unfair treatment of the taxpayer.
Internal Revenue Code § 7803(d)(1)(A)(v)
requires the Treasury Inspector General for Tax                        The Treasury Inspector General
Administration to annually evaluate IRS compliance                        for Tax Administration is
                                                                        required to annually evaluate
with the prohibition against using the Illegal Tax                        IRS compliance with the
Protester or any similar designations. This is our                     prohibition against using Illegal
twelfth review since Fiscal Year 1999. These reviews                     Tax Protester or any similar
have identified areas for improvement to help the IRS                           designations.
comply with the Illegal Tax Protester designation
prohibition.
This review was performed in the Criminal Investigation Division, the Office of the
National Taxpayer Advocate and the Office of Appeals in Washington, D.C.; the Small
Business/Self-Employed Division in New Carrollton, Maryland; and the Wage and Investment


2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  See Appendix V for a glossary of terms.
                                                                                                              Page 1
                  Fiscal Year 2010 Statutory Audit of Compliance With Legal
                  Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



Division in Atlanta, Georgia, during the period July 2009 through March 2010. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. However, due to concerns with providing us
access to sensitive grand jury information, the IRS provided us with an extract of manually
edited Criminal Investigation Division cases from the Criminal Investigation Management
Information System. While our audit results seem reasonable based on prior experience with this
database, we were not able to validate any of the information due to IRS editing of the data. We
are required by generally accepted government auditing standards to disclose this limitation in
the scope of our work. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                   Fiscal Year 2010 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the Master
File to accelerate collection activity for taxpayers who were delinquent in filing tax returns or
paying their taxes. These indicators were also intended to alert employees that they might
encounter problems when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about the use of the Illegal Tax Protester designation because:
   •   Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
   •   Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported the IRS had removed these designation codes from the Master File
as required by the law. Based on our analysis of approximately 1.2 million taxpayer records that
had been coded for accelerated collection activity, the IRS has not reintroduced Illegal Tax
Protester codes on the Master File. The law also prohibits using any designation similar to
Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly coded as
Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any other type
of similar designation on these accounts.

Internal Revenue Service Publications Do Not Contain Illegal Tax
Protester References
To help promote compliance with
RRA 98 § 3707, IRS management issued
directives for employees to update various
publications to eliminate references to
Illegal Tax Protester terminology and
programs. Our reviews prior to
Fiscal Year 2002 identified several
publications that contained Illegal Tax
Protester references. When notified of the

                                                                                             Page 3
                   Fiscal Year 2010 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations



problem, the IRS had either revised the publications or labeled them as being obsolete. Our
review of available publications on the Servicewide Electronic Research Program, IRS public
Internet web site (IRS.gov), Electronic Publishing web site, and 2009 Federal Tax Products DVD
did not identify any current Illegal Tax Protester references. By eliminating these references
from its forms, documents, letters, and training materials, the IRS avoids the implication that the
use of this terminology is permissible.

Illegal Tax Protester References Have Been Removed From the
Internal Revenue Manual
In 9 of our 11 prior reviews, we identified
Illegal Tax Protester references in various
formats of the Internal Revenue Manual. The
Official Internal Revenue Manual is
maintained on the Electronic Publishing web
site. However, it is also found electronically
on the Internal Revenue Manual online, the
Servicewide Electronic Research Program,
IRS.gov, and CD-ROM, as well as in paper
format. The graphic to the right shows the
relationship between the Official Internal
Revenue Manual and the various formats
available to IRS employees.
During our Fiscal Year 2010 review, we again
verified that no Illegal Tax Protester references
existed in the Internal Revenue Manual. By
removing all Illegal Tax Protester references
from the Internal Revenue Manual, the IRS
avoids any inappropriate implication to
taxpayers for whom these designations are being
used.

In Some Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
We found that, out of approximately 80.6 million records and cases, there were 196 instances in
which employees had labeled taxpayers as “Tax Protester,” “Constitutionally Challenged,” or
other similar designations in case narratives on the following computer systems during the period
of October 2008 through September 2009:


                                                                                            Page 4
                      Fiscal Year 2010 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



    •   Appeals Centralized Database System: A review of approximately 2.7 million
        opened/closed Appeals function narrative comment records identified 21 cases in which
        19 employees used Illegal Tax Protester or a similar designation when referring to
        specific taxpayers in the case narratives.
    •   Automated Collection System: A review of approximately 2.3 million open cases
        identified **************************1***********************************
        ************1***************************************.
    •   Criminal Investigation Management Information System: A review of approximately
        16,000 opened/closed cases identified 3 cases in which 3 employees used a similar
        designation when referring to specific taxpayers in the case narratives.
    •   Account Management Services: A review of approximately 74.9 million records
        identified 99 cases in which 79 employees used Illegal Tax Protester or a similar
        designation when referring to specific taxpayers in the case narratives.
    •   Integrated Collection System: A review of approximately 495,000 open cases identified
        63 cases in which 52 employees used Illegal Tax Protester or a similar designation when
        referring to specific taxpayers in the case narratives. Note that this number has decreased
        substantially from the prior year (refer to Figure 1). This is due to a programming change
        made to the system to prevent input of these terms (see page 7).
    •   Taxpayer Advocate Management Information System: A review of approximately
        55,000 open cases identified 8 cases in which 8 employees used Illegal Tax Protester or a
        similar designation when referring to specific taxpayers in the case narratives.
    •   Taxpayer Information File: A review of approximately 130,000 open records identified
        **********************1***********************************************
        *******************************1*************************************.
In addition to the systems above, we also reviewed hardcopy case files from the Exempt
Organization function. 4 We reviewed all 54 case files closed as denied during Fiscal Year 2009
and identified no case history narratives containing Illegal Tax Protester or other similar
designations. This is the first time we have reviewed these types of cases, and because we did
not identify any designations we did not include the results in Figure 1.
We believe the 196 instances we did identify in the various systems previously listed are
prohibited by law. Figure 1 contains the number of Illegal Tax Protester or similar designations
identified in IRS computer system case narratives during our Fiscal Years 2009 and 2010
reviews.


4
 The Exempt Organization function ensures religious, charitable, social, educational, political, and other
not-for-profit organizations meet and maintain compliance with the complex requirements for tax-exempt status.
                                                                                                          Page 5
                       Fiscal Year 2010 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations



       Figure 1: Illegal Tax Protester and Similar Designations in Case Narratives
                                      Fiscal Year 2009 Review                   Fiscal Year 2010 Review

      Computer System                       Protester     Similar                     Protester      Similar
                             Employees                                 Employees
                                           Designation   Designation                 Designation    Designation
                              Involved                                  Involved
                                              Used          Used                        Used           Used

     Appeals Centralized
                                41             15               33         19             10              11
      Database System

    Automated Collection
                                 3              3               0           **1*******1***                 0
         System

    Criminal Investigation
        Management               4              0               4           3             0               3
     Information System

    Account Management
                                77             75               19         79             85              14
         Services 5

    Integrated Collection
                                131            49           119            52             18              45
           System

     Taxpayer Advocate
        Management               3              0               3           8             ***1******* **1**
     Information System

    Taxpayer Information
                                 4              **1******* **1***********1***********1**********0
            File

Source: Case narratives found on various IRS computer systems and the Treasury Inspector General for Tax
Administration report entitled Fiscal Year 2009 Statutory Audit of Compliance With Legal Guidelines Prohibiting
the Use of Illegal Tax Protester and Similar Designations (Reference Number 2009-40-078, dated May 28, 2009).

We also identified 58 case narratives in which employees made references about the taxpayers’
actions (e.g., taxpayer sent letters containing “typical protester language,” the taxpayer
responded with “protester jargon”). We agree with the IRS that merely making references to a
taxpayer’s actions does not constitute a designation prohibited by statute. However, we are
concerned these references could become, or be considered, permanent labels that could
subsequently stigmatize taxpayers in future contacts with the IRS. We did not include any
instances in which employees were only documenting statements made by a taxpayer and/or his
or her representative because quoting a taxpayer’s self-designation as an Illegal Tax Protester is
not prohibited by the law.


5
  In prior reviews, we reviewed and reported on Desktop Integration. In February 2009, Desktop Integration was
integrated into Account Management Services.
                                                                                                          Page 6
                   Fiscal Year 2010 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations



The statute states that officers and employees of the IRS shall not designate taxpayers as Illegal
Tax Protesters or any similar designations. It further specifies that existing designations in the
Master File must be removed and any other designations made before the effective date of the
statute, such as those on paper records that have been archived, must be disregarded. Senate
Committee on Finance Report 105-174 (dated April 22, 1998), related to the RRA 98 § 3707
provision, stated the Committee was concerned that taxpayers might be stigmatized by a
designation as an “Illegal Tax Protester.” Based upon the language of the statute and the Senate
Committee Report, we believe IRS officers and employees should not label taxpayers as Illegal
Tax Protesters or similar designations in any records, which include paper and electronic case
files. Officers and employees should not designate taxpayers as such because a designation
alone contains a negative connotation and appears to label the taxpayer.
IRS management disagrees that employee use of Illegal Tax Protester or similar designations in a
case narrative is a potential violation of the law. We continue to believe that the use of these
designations in case narratives may stigmatize taxpayers and cause employee bias in future
contacts with these taxpayers. Electronic case narratives are available to other IRS employees
for future reference and may affect the opinions and actions of employees working the taxpayers’
cases.
Even though IRS management continues to disagree with our interpretation of the law, they have
taken a conservative approach by implementing a policy that prohibits employees from using
Illegal Tax Protester or any similar designation. In August 2007, IRS management issued a
memorandum to all employees reminding them of this policy. In Fiscal Year 2008, guidance in
the form of Alerts and memorandums were issued to employees and portions of the Internal
Revenue Manual were updated to reflect the prohibition on using Illegal Tax Protester or any
similar designation. Through IRS management’s continued efforts, the total number of improper
designations by IRS employees has decreased.

Changes to the Integrated Collection System Should Reduce
Improper Designations
During our review, we identified that the IRS had made a very positive change to the Integrated
Collection System that should reduce the usage of Illegal Tax Protester or similar designations
on that system. During Fiscal Year 2009, the Integrated Collection System was converted from a
Unix-based to a Windows-based platform. As part of the conversion, a systemic control was put
in place that prevents employees from using specific protester-type designations in case histories.
If an employee uses a prohibited designation in their case history, the system will recognize it
and prevent the employee from saving the information until the term is changed or removed.
New terms or wording can be added to the systemic control to ensure that new words or terms
are not being substituted for Illegal Tax Protester or similar designations. The conversion
process was completed in July 2009. This change is very significant because the Integrated
Collection System has historically had a large number of the exception cases identified during

                                                                                            Page 7
                   Fiscal Year 2010 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations



our reviews. When asked if this process could be incorporated into other systems, we were told
that it would work only on Windows-based systems, and the majority of the other applicable
systems are Unix-based. However, the IRS should still be commended for making this change
that will protect taxpayer rights.

Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Have Been Established to Address Tax Compliance
Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using Illegal Tax Protester or similar designations because alternative programs exist to address
issues previously handled by the Illegal Tax Protester Program. These include:
   •   The Frivolous Return Program that handles taxpayers who file tax returns based on some
       type of frivolous argument that justifies payment of little or no income tax. This includes
       filing a tax return claiming no income because paying taxes is voluntary or claiming to be
       a citizen of a State but not a citizen of the United States.
   •   The Nonfiler Program that handles taxpayers who fail to file their required tax returns.
   •   The Potentially Dangerous Taxpayer/Caution Upon Contact Program that handles
       taxpayers who have assaulted and/or threatened IRS employees.
Each of these programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
Illegal Tax Protester Program, each program addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual programs on a permanent basis, as was the case in
the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. As a result, we believe that
prohibiting the use of the Illegal Tax Protester designation has had no negative impact on
collection or examination activities.
       Management’s Response: Although we made no recommendations in this report, in
       their response to a draft of this report, IRS management stated there are no indications
       that the use of Illegal Tax Protester or similar designations has affected the way in which
       the IRS deals with taxpayers who disapprove of the tax system. Because these taxpayers
       are treated in the same manner and given the same rights as any other taxpayer, the IRS
       does not believe that the rights of the taxpayers related to the 196 instances we identified
       were affected. However, the IRS continues its conservative approach on this issue by taking
       actions to further minimize the number of instances in which these references occur. The

                                                                                            Page 8
           Fiscal Year 2010 Statutory Audit of Compliance With Legal
           Guidelines Prohibiting the Use of Illegal Tax Protester and
                              Similar Designations


IRS plans to issue a Servicewide Electronic Research Program Alert to remind employees not
to use Illegal Tax Protester or similar designations when referring to taxpayers.
Office of Audit Comment: We continue to believe our outcome measure is valid
because the use of Illegal Tax Protester, or similar designations, may stigmatize taxpayers
and cause employee bias in future contacts with these taxpayers. Electronic case
narratives are available to other IRS employees for future reference and may affect the
opinions and actions of employees working the taxpayers’ cases.




                                                                                    Page 9
                       Fiscal Year 2010 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 98 1 § 3707
and its own internal guidelines that prohibit IRS officers and employees from referring to
taxpayers as Illegal Tax Protesters or any similar designations. The Treasury Inspector General
for Tax Administration is required to annually evaluate compliance with the prohibition against
using Illegal Tax Protester or any similar designations. 2 Unless otherwise noted, our limited
tests of the reliability of data obtained from various IRS systems did not identify any errors. We
tested the reliability of the data by scanning the data received for blank, incomplete, illogical, or
improper data. In addition, we traced a judgmental sample for each data set to the source IRS
files to ensure accuracy. To accomplish the objective, we:
I.       Determined if the Illegal Tax Protester coding on the Master File 3 was removed by
         reviewing all tax accounts coded for accelerated collection activity as of September 2009
         on the Business Master File and Individual Master File. We analyzed 1,218,567 Master
         File records that had been coded for accelerated collection activity.
         We also matched our historic computer extract of approximately 57,000 taxpayers
         designated as Illegal Tax Protesters before the RRA 98 was enacted to our records that
         had been coded for accelerated collection activity to determine if any new common codes
         were being used to classify the taxpayers as Illegal Tax Protesters.
II.      Determined if the Internal Revenue Manual contained Illegal Tax Protester or any similar
         designations by performing key word searches on electronic versions found on the IRS
         Electronic Publishing web site, the Internal Revenue Manual Online and on CD-ROM,
         the Servicewide Electronic Research Program, IRS.gov web site, and the IRS Chief
         Counsel Directives Manual. We performed our review tests from August 10 to 27, 2009.
III.     Determined if IRS publications contained Illegal Tax Protester or any similar
         designations by performing key word searches of the Servicewide Electronic Research
         Program, IRS.gov, and the IRS Electronic Publishing web site in August 2009, and the
         IRS 2009 Federal Tax Products DVD in January 2010.
IV.      Determined if employees were using Illegal Tax Protester or any similar designations
         within taxpayer case narratives on the Integrated Collection System by securing a copy of

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Internal Revenue Code § 7803(d)(1)(A)(v).
3
  See Appendix V for a glossary of terms.
                                                                                                              Page 10
                       Fiscal Year 2010 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations



         the database and analyzing 495,015 cases on the open Integrated Collection System file
         as of September 30, 2009, with history action dates from October 1, 2008, through
         September 30, 2009.
V.       Determined if employees were using Illegal Tax Protester or any similar designations
         within taxpayer case narratives on the Automated Collection System by securing a copy
         of the database and analyzing 2,292,222 cases open as of September 30, 2009, with
         history action dates between October 1, 2008, and September 30, 2009.
VI.      Determined if employees were using Illegal Tax Protester or any similar designations
         within taxpayer case narratives on the Taxpayer Advocate Management Information
         System by securing a copy of the database as of September 2009 and analyzing
         55,261 open cases with activity from October 1, 2008, through September 30, 2009.
VII.     Determined if employees were using Illegal Tax Protester or any similar designations
         within the taxpayer case narratives on Account Management Services by securing a copy
         of the database as of September 2009 and analyzing 74,855,413 records with activity
         between October 2008 and September 2009.
VIII.    Determined if employees were using the Illegal Tax Protester or any similar designations
         within taxpayer case narratives on the Appeals Centralized Database System by securing
         a copy of the database as of September 2009 and analyzing 2,716,451 open/closed
         Appeals function narrative comment records with activity between October 2008 and
         September 2009.
IX.      Determined if employees were using Illegal Tax Protester or any similar designations
         within the taxpayer case narratives on the Criminal Investigation Management
         Information System by analyzing 15,940 Criminal Investigation cases with current year
         updates between October 1, 2008, and September 30, 2009.
         Due to concerns with providing us access to sensitive grand jury information, the IRS
         provided a manually edited extract of Criminal Investigation Division cases from the
         Criminal Investigation Management Information System. While our audit results seem
         reasonable based on prior experience with this database, we were unable to validate any
         of the information due to IRS editing of the data. We are required by generally accepted
         government auditing standards to disclose this limitation in the scope of our work.
X.       Determined if the IRS is using any Frivolous Return Program 4 codes as replacements for
         Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
         Return Program and interviewing its Program Coordinator.


4
  The Frivolous Return Program handles taxpayers who file tax returns based on some type of frivolous argument
that justifies payment of little or no income tax. This would include filing a tax return claiming no income because
paying taxes is voluntary or claiming to be a citizen of a State but not a citizen of the United States.
                                                                                                            Page 11
                     Fiscal Year 2010 Statutory Audit of Compliance With Legal
                     Guidelines Prohibiting the Use of Illegal Tax Protester and
                                        Similar Designations



XI.     Determined if the IRS Nonfiler Program 5 is in compliance with the provisions established
        by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler Program and
        interviewing its Program Coordinator.
XII.    Determined if there is any relationship between Illegal Tax Protester designations and
        Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
        by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program 6 and interviewing its Program Coordinator.
XIII.   Determined if employees were using Illegal Tax Protester or any similar designations
        within the Activity Code field on the Taxpayer Information File by securing a copy of the
        database and analyzing 130,085 open records with activity between October 2008 and
        September 2009.
XIV. Determined if employees were using Illegal Tax Protester or any similar designations
     within taxpayer case narratives in the Exempt Organization function. 7 We obtained and
     reviewed all of the 54 closed cases that were denied out of the total 77,309 Exempt
     Organization cases closed for the period September 27, 2008, through
     September 25, 2009.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls that ensure the reliability of the
data used for our analyses, including input validation. During our review we tested the validity
of the data used for our analyses against the source; however, we did not perform any specific
testing of data input controls. It should be noted that data from these same systems were used
during prior audits of Illegal Tax Protester designations and no significant data issues were
identified.




5
  The Nonfiler Program handles taxpayers who fail to file their required tax returns.
6
  The Potentially Dangerous Taxpayer/Caution Upon Contact Program handles taxpayers who have assaulted and/or
threatened IRS employees.
7
  The Exempt Organization function ensures religious, charitable, social, educational, political, and other
not-for-profit organizations meet and maintain compliance with the complex requirements for tax-exempt status.
                                                                                                     Page 12
                  Fiscal Year 2010 Statutory Audit of Compliance With Legal
                  Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Audit Director
Steven Stephens, Audit Manager
Craig Pelletier, Lead Auditor
David Hartman, Senior Auditor
Ali Vaezazizi, Auditor
James Allen, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist




                                                                                      Page 13
                  Fiscal Year 2010 Statutory Audit of Compliance With Legal
                  Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
National Taxpayer Advocate TA
Chief Technology Officer OS:CTO
Director, Office of Research, Analysis, and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Chief Technology Officer OS:CTO:SM:PO
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   GAO/TIGTA Liaison, Tax Exempt and Government Entities SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 14
                      Fiscal Year 2010 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. While no recommendations were made in this
report, the Treasury Inspector General for Tax Administration has made prior recommendations
that continue to provide a benefit. This benefit will be incorporated into our Semiannual Report
to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 192 taxpayers potentially affected 1 (see page 4).

Methodology Used to Measure the Reported Benefit:
We reviewed:
    •   From the Appeals Centralized Database System, approximately 2.7 million open/closed
        Appeals function narrative comment records with history action dates between
        October 2008 and September 2009 and identified 21 taxpayer cases with narratives that
        contained Illegal Tax Protester or a similar designation.
    •   From the Automated Collection System, approximately 2.3 million open cases with
        history action dates between October 2008 and September 2009 and identified ***1***
        ******************1**********************.
    •   From the Criminal Investigation Management Information System, approximately
        16,000 cases opened and/or closed between October 2008 and September 2009 and
        identified 3 taxpayer cases with narratives that contained a similar designation.
    •   From Account Management Services, approximately 74.9 million records with history
        action dates between October 2008 and September 2009 and identified 99 taxpayer cases
        with narratives that contained Illegal Tax Protester or a similar designation.
    •   From the Integrated Collection System, approximately 495,000 open cases with history
        action dates between October 2008 and September 2009 and identified 63 taxpayer cases
        with narratives that contained Illegal Tax Protester or a similar designation.


1
 We identified 196 instances in which employees had labeled taxpayers as an Illegal Tax Protester or a similar
designation in a case narrative on an IRS computer system. Four of these taxpayers were labeled as an Illegal Tax
Protester or similar designation in a case narrative on more than one IRS computer system.
                                                                                                          Page 15
               Fiscal Year 2010 Statutory Audit of Compliance With Legal
               Guidelines Prohibiting the Use of Illegal Tax Protester and
                                  Similar Designations



•   From the Taxpayer Advocate Management Information System, approximately
    55,000 open cases with history action dates between October 2008 and September 2009
    and identified 8 taxpayer cases with narratives that contained Illegal Tax Protester or a
    similar designation.
•   From the Taxpayer Information File, approximately 130,000 open records with history
    action dates between October 2008 and September 2009 and identified ****1******
    ***********1**********************************************.




                                                                                       Page 16
              Fiscal Year 2010 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and
                                 Similar Designations



                                                                             Appendix V

                         Glossary of Terms

Account Management       Provides employees access to multiple IRS systems through
Services                 their computers and allows for inventory management, case
                         delivery, history narratives, print-to-fax capabilities for
                         sending information to taxpayers, and electronic referral
                         generation.
Appeals Centralized      The Appeals system for case receipt, control, and processing
Database System          used by Appeals Technical Managers and employees to record
                         their case activities and time charges.
Automated Collection     A telephone contact system through which telephone assistors
System                   collect unpaid taxes and secure tax returns from delinquent
                         taxpayers who have not complied with previous notices.
Business Master File     The IRS database that consists of Federal tax-related
                         transactions and accounts for businesses. These include
                         employment taxes, income taxes on businesses, and excise
                         taxes.
Criminal Investigation   A computerized system used to track the status and progress
Management               of criminal investigations.
Information System
Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.
Integrated Collection    A system used by Collection function employees to report
System                   taxpayer case time and activity.
Internal Revenue         A manual containing the IRS’ internal guidelines.
Manual
Master File              The IRS database that stores various types of taxpayer
                         account information. This database includes individual,
                         business, and employee plans and exempt organizations data.
Servicewide Electronic   An electronic researching tool containing many former paper
Research Program         research applications (e.g., publications, the Internal Revenue
                         Manual, the Probe and Response Guide).


                                                                                      Page 17
             Fiscal Year 2010 Statutory Audit of Compliance With Legal
             Guidelines Prohibiting the Use of Illegal Tax Protester and
                                Similar Designations



Taxpayer Advocate       An electronic database and inventory control system used by
Management              Taxpayer Advocate Service employees.
Information System
Taxpayer                A nine-digit number assigned to taxpayers for identification
Identification Number   purposes. Depending upon the nature of the taxpayer, the
                        Taxpayer Identification Number is an Employer Identification
                        Number, a Social Security Number, or an Individual Taxpayer
                        Identification Number.
Taxpayer Information    A file containing entity and tax data processed at a given
File                    service center for all Taxpayer Identification Numbers.




                                                                                     Page 18
     Fiscal Year 2010 Statutory Audit of Compliance With Legal
     Guidelines Prohibiting the Use of Illegal Tax Protester and
                        Similar Designations



                                                      Appendix VI

Management’s Response to the Draft Report




                                                             Page 19
Fiscal Year 2010 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and
                   Similar Designations




                                                        Page 20
